IN THE SUPREME COURT OF THE UNITED STATES
No.
JAIDEEP S. CHAWLA,
Petitioner,
v.
COURT OF APPEALS OF MASSACHUSETTS,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 6,149 words, excluding the parts of the petition that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 9, 2019
Jaideep S. Chawla
PROSE
Mailing Address:
12 Lexington Avenue
Charlestown, MA 02129

